June 6, 2014

Report Number: A-01-14-00501

Ms. Karen Murray
Vice President and Chief Compliance Officer
Steward Health Care System
500 Boylston Street, 5th Floor
Boston, MA 02116

Dear Ms. Murray:

This informational report provides you with the consolidated results of our audits conducted at
selected hospitals within the Steward Health Care System. 1 These hospitals include Good
Samaritan Medical Center, Morton Hospital, St. Elizabeth’s Medical Center, and Norwood
Hospital (the Hospitals).

Why We Did These Reviews

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements. For
calendar year (CY) 2012, Medicare paid hospitals $148 billion, which represents 43 percent of
all fee-for-service payments. This represents a significant portion of the Medicare program, and
accordingly OIG has focused its oversight efforts in this area.

The objective of these reviews was to determine whether the Hospitals complied with Medicare
requirements for billing inpatient and outpatient services on selected claims.

How We Conducted These Reviews

The reviews covered a total of $8,024,422 in Medicare payments to the Hospitals for 963 claims
that we judgmentally selected as potentially at risk for billing errors. We focused our reviews on
the risk areas that we had identified as a result of prior OIG reviews at other hospitals. We
evaluated compliance with selected billing requirements and subjected 60 claims to focused
medical review to determine whether the services were medically necessary. These prior reports
focused on selected risk areas and did not represent an overall assessment of all claims submitted
by the Hospitals for Medicare reimbursement.


1
  Steward Health Care System is a community hospital network providing inpatient and outpatient services
throughout Massachusetts.

Medicare Compliance Reviews at Hospitals in the Steward Health Care System (A-01-14-00501)                 1
       OIG Compliance Reviews of Hospitals Within the Steward Health Care System


                                                                  Report
         Audit Title and Report Number                          Issue Date            Hospital Location
Medicare Compliance Review of Good Samaritan
Medical Center for Calendar Years 2010 and 2011
(A-01-13-00501)                                             February, 2014        Brockton, Massachusetts
Medicare Compliance Review of Morton Hospital
for Calendar Years 2010 and 2011
(A-01-13-00500)                                             January, 2014         Taunton, Massachusetts
Medicare Compliance Review of St. Elizabeth’s
Medical Center for Calendar Years 2010 and 2011
(A-01-12-00528)                                             December, 2013        Brighton, Massachusetts
Medicare Compliance Review of Norwood Hospital
for the Period July 2008 Through June 2010
(A-01-11-00510)                                             November, 2011        Norwood, Massachusetts

In each of our prior reviews, we recommended that the Hospitals refund the overpayments to the
Medicare contractor and strengthen controls to ensure full compliance with Medicare
requirements. The Hospitals concurred with most of our findings and recommendations and
stated that they have developed corrective action plans to address the identified errors and
improve controls.

What We Found

The Hospitals complied with Medicare billing requirements for 249 inpatient and outpatient
claims we reviewed. However, the Hospitals did not fully comply with Medicare billing
requirements for the remaining 714 claims, resulting in overpayments of $2,805,290.
Specifically, 554 inpatient claims had billing errors, resulting in overpayments of $2,613,855,
and 160 outpatient claims had billing errors, resulting in overpayments of $191,435. These
errors occurred primarily because the Hospitals did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors.

Appendix A contains a summary of results by hospital. Appendixes B and C contain summaries
of results by type of finding (inpatient and outpatient, respectively).

Conclusion

We have provided this report to you for informational purposes. Please use these results in any
corrective actions you may take to reduce Medicare overpayments for these Hospitals and others
in your health care system. We appreciate the opportunity to provide you with these results.




Medicare Compliance Reviews at Hospitals in the Steward Health Care System (A-01-14-00501)            2
Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this informational report will be posted at
https://oig.hhs.gov.


                                                  Sincerely,

                                                  /Jeffrey Cohen/ for
                                                  Brian P. Ritchie
                                                  Assistant Inspector General
                                                    for Audit Services




Medicare Compliance Reviews at Hospitals in the Steward Health Care System (A-01-14-00501)        3
                                  APPENDIX A: RESULTS BY HOSPITAL
                                                                                             Claims
                                                                                              With
                                                                            Value of         Under/      Value of
                                                           Selected         Selected         Over-       Net Over-
                     Inpatient                             Claims           Claims          payments     payments
Good Samaritan                                                225            $2,061,378            183    $757,453

Morton                                                        194             1,403,598            155      516,760

St. Elizabeth’s                                               206             2,967,685            168    1,153,960

Norwood                                                       123             1,127,042             48      185,682

 Inpatient Totals                                             748            $7,559,703            554   $2,613,855


                    Outpatient

Good Samaritan                                                37               $117,426            29       $82,614

Morton                                                        27                  76,931           23        31,691

St. Elizabeth’s                                               76                193,033            57        55,976

Norwood                                                       75                  77,329           51        21,154

 Outpatient Totals                                            215              $464,719            160    $191,435


      Inpatient and Outpatient Combined

Good Samaritan                                                262            $2,178,804            212    $840,067

Morton                                                        221             1,480,529            178      548,451

St. Elizabeth’s                                               282             3,160,718            225    1,209,936

Norwood                                                       198             1,204,371             99      206,836

 Inpatient and Outpatient Totals                              963            $8,024,422            714   $2,805,290




      Medicare Compliance Reviews at Hospitals in the Steward Health Care System (A-01-14-00501)            4
                          APPENDIX B: INPATIENT RESULTS OF REVIEWS BY TYPE OF FINDING

       Good Samaritan                 Morton                 St. Elizabeth’s                 Norwood
  Claims With                Claims With               Claims With                  Claims With
    Under/      Value of Net   Under/     Value of Net   Under/        Value of Net   Under/      Value of Net
 Overpayments Overpayments Overpayments Overpayments Overpayments Overpayments Overpayments Overpayments
Incorrectly Billed as Inpatient
       103                 $563,904           101               $475,499           107        $970,673    22      $80,456

Incorrectly Billed as Separate Inpatient Stays
        25                  165,399            2                   11,441           22         114,601    11       51,086

Incorrectly Billed Diagnosis-Related Group Codes
        3                      8,824          ---                       ---          7          63,066    15       54,140

Incorrect Discharge Status
        5                     13,895           2                   24,926           ---             ---   ----          ----

Incorrect Source-of-Admission Code
        47                     5,431          50                    4,894           30            3,570   ----          ----

Manufacturer Credit for a Replaced Medical Device Not Obtained
        ---                        ---        ----                     ----          1            5,007   ----          ----

Incorrect Provider Number Used
        ---                        ---        ----                     ----          1          (2,957)   ----          ----

Inpatient Totals
      183                  $757,453           155               $516,760           168       $1,153,960   48     $185,682




Medicare Compliance Reviews at Hospitals in the Steward Health Care System (A-01-14-00501)                          5
                         APPENDIX C: OUTPATIENT RESULTS OF REVIEWS BY TYPE OF FINDING

      Good Samaritan                              Morton                 St. Elizabeth’s                 Norwood
 Claims With                             Claims With               Claims With                  Claims With
   Under/     Value of Net                 Under/     Value of Net   Under/        Value of Net   Under/      Value of Net
Overpayments Overpayments               Overpayments Overpayments Overpayments Overpayments Overpayments Overpayments
Incorrect Billing for Dental Services
       8                  $52,470              2                   $3,260           ---          ---    3          $13,728
Incorrectly Billed Charges
      ---                         ---         ----                     ----         1         23,524   ----               ----
Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained
      1                   21,662       ---                   ---        2                     14,565   ----               ----
Incorrectly Billed Outpatient Services Provided During Inpatient Stays
      17                    3,601         13                 9,710                  24         9,458   11            2,541
Incorrectly Billed Number of Units
       1                   2,796               2                   12,743           ---          ---   ----               ----
Incorrectly Billed Services with Modifier -59
       2                    2,085          6                        5,978           13         7,582   12                   0
Insufficiently Documented Services
       ---                   ---              ----                     ----         8           391     9            1,307
Incorrectly Billed Evaluation and Management Services
      ---                      ---      ----                           ----         6           311    11                 885
Incorrect Healthcare Common Procedure System Codes
      ---                   ---       ----                             ----         3           145     5            2,693
Outpatient Totals
     29                     $82,614           23                  $31,691           57       $55,976   51          $21,154



Medicare Compliance Reviews at Hospitals in the Steward Health Care System (A-01-14-00501)                            6
